 Department of Health and Human Services
         OFFICE OF
    INSPECTOR GENERAL




  SURVEYING STAFF TO IDENTIFY
UNNECESSARY INTERNAL CONTROLS

      Methodology and Results




                    JUNE GIBBS BROWN
                    Inspector General

                      FEBRUARY 1995
                      OEI-09-94-00210
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the Office
of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and management problems and recommends courses to correct them.

                            OFFICE OF AUDIT SERVICES
The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations in order to reduce waste, abuse, and mismanagement and to promote economy and
efficiency throughout the Department.

                            OFFICE OF INVESTIGATIONS
The OIG’s Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions,
or civil money penalties. The OI also oversees State Medicaid fraud control units which investigate
and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AND INSPECTIONS
The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendations contained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. The report was prepared in the San Francisco regional
office under the direction of Kaye D. Kidwell, Regional Inspector General, and Paul A. Gottlober,
Deputy Regional Inspector General. Project staff included:

REGION IX                                                               HEADQUARTERS

Elizabeth Celniker                                                      Tina Fuchs

Donald Loeb

Brad Rollin


REGION II

Nancy Harrison


For additional copies of this report, please contact the San Francisco office at (415) 437-7900.
              EXECUTIVE SUMMARY


PURPOSE

The purpose of this inspection was to develop and test a prototype that agencies could use
to identify unduly burdensome or unnecessary internal controls.

BACKGROUND

On September 11, 1993, President Clinton signed Executive Order 12861 which required
that all executive departments and agencies eliminate 50 percent of their internal controls
by 1996. The President signed the Executive Order immediately following release of the
National Performance Review which described and detailed the immense time and
resources consumed by an over-abundance of internal controls.

In response, Department of Health and Human Services Secretary Donna Shalala instructed
her Continuous Improvement Program (CIP) Steering Committee to oversee the reduction
of internal controls within the Department. The CIP’s work group on internal controls
requested the Office of Inspector General’s (OIG) assistance in identifying duplicative or
unnecessary controls and requirements.

METHODOLOGY

The prototype methodology we developed uses clustered focus groups as well as group and
individual interviews with field-level staff to identify internal controls that they believe are
burdensome or unnecessary. We tested our methodology with 154 staff working for Public
Health Service (PHS) agencies in California, including the Food and Drug Administration
and the Indian Health Service. We selected PHS for the case study because of its diversity
and complexity.

FINDINGS

Our findings are based on the opinions of the 154 field staff whom we interviewed. We
did not attempt to confirm or verify these opinions.

Staff identified 260 internal controls that they believe are unduly burdensome or
unnecessary

The controls staff identified generally fall into the three CIP-defined categories:
approvals, procedures, and reports. Staff cited several reasons why they believe so many
unnecessary internal controls exist.




                                               i
Most unnecessary controls pertain to approvals and the need for delegations of authority

Approximately 56 percent of the 260 controls that staff believe are unnecessary or unduly
burdensome fall into the category of approvals. Staff contend that many unnecessary
levels of review and approval exist in their offices, headquarters, and other agencies. In
addition to unnecessary program controls, staff cited unnecessary administrative controls in
the areas of procurement, budget, travel, personnel, performance evaluation, timekeeping,
payroll, and training.

To a limited extent, staff identified both written and unwritten procedures that should be
modified or eliminated

Staff identified almost 30 written or unwritten operational procedures they believe should
be eliminated or modified. Staff stated that written procedures contain too much
extraneous information, are outdated or too difficult to continually update, and/or conflict
with other procedures.

Staff believe that many reports and paperwork could be eliminated or otherwise
streamlined

Staff identified approximately 85 burdensome or otherwise problematic reports and systems
for reporting data as well as unnecessary paperwork that they believe could be eliminated.
The most commonly mentioned reports were data reports. These include information on
staff and/or agency finances, travel, staffing, inventory, training, and conferences. They
also include data reported to headquarters on the performance of the agencies’ customers,
such as grantees, contractors, firms regulated by FDA, and health care providers funded by
PHS. Staff stated that completing these reports takes their time away from the more
important tasks of administering public health programs. Finally, some systems that were
designed to ease reporting have become more burdensome than helpful.

Approximately 96 percent of participants believe that focus groups are useful for
identifying unnecessary internal controls

In order to assess the focus group approach, we asked participants to complete an
evaluation form at the end of each focus group. Participants strongly believe that the focus
group approach yields high quality information about unnecessary internal controls.

CONCLUSIONS

Focus groups are an effective means of identifying internal controls that may be unduly
burdensome or unnecessary; however, the next step is to identify the reason for each
control before modifying or eliminating it

The focus group method provides an effective forum for initial identification and
discussion of problematic internal controls. It allows internal control reviewers to identify



                                              ii
the controls that cause the most problems for staff--those that most negatively affect their
morale and their ability to do their jobs. It also allows reviewers to identify controls that
might not have been identified using a "top-down" approach. Finally, it helps clarify why
staff are concerned about specific controls.

Once the controls are identified, the next step is to determine the reason for each control,
take action, and provide feedback to staff. The focus groups provide a starting point for
analysis. Obtaining the perspectives of the people who developed, imposed, and oversee
each control is important in determining if a control should be retained, modified or
eliminated.

Agencies’ efforts to reduce internal controls are incomplete without field staff input

Field staff identified controls that headquarters reduction efforts would probably not
identify because many of them are operational and do not appear in written procedures.
Field staff can contribute valuable information about revising controls that affect them. In
addition, the actual process of surveying staff can have positive effects on employee
empowerment and morale.

Ongoing efforts to reduce internal controls are necessary to prevent their proliferation

The large number of unnecessary internal controls identified by staff is partially related to
the lack of a continuous effort to weed out and eliminate them. An on-going internal
controls review effort will be necessary to avert another build-up of unnecessary controls
after agencies meet the President’s 50 percent reduction requirement.

NEXT PHASES OF THE INSPECTION

This report will be followed by two additional inspection phases, each resulting in a
separate report. First, we will provide PHS with a list of every internal control identified
by staff as unduly burdensome or unnecessary. At the same time, we will develop a
methodology to analyze the controls identified by staff and test this methodology using a
sample of controls we select in association with PHS and the Office of the Secretary. This
methodology should help agencies determine the reason for each control and enable them
to decide whether the control should be retained, modified, or eliminated.




                                              iii
                        TABLE OF CONTENTS


                                                                                                             PAGE


EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


  • Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


  • Focus Group Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


  • Individual and Small Group Interviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


  • Staff identified 260 unnecessary internal controls . . . . . . . . . . . . . . . . . . . . . . . . 8


  • Most internal controls pertain to approvals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


  • Some procedures are problematic . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


  • Reports and paperwork could be streamlined . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


  • Almost all participants approved of focus group process . . . . . . . . . . . . . . . . . . . 13


CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


NEXT PHASES OF THE INSPECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES


A: Letter to PHS Staff . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Focus Group Question Route . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


C: Focus Group Checklist . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1


D: Tips on Focus Groups


E: Brainstorming Rules

                            INTRODUCTION


PURPOSE

The purpose of this inspection was to develop and test a prototype that agencies could use
to identify unduly burdensome or unnecessary internal controls.

BACKGROUND

On September 11, 1993, President Clinton signed Executive Order 12861 which required
that all executive departments and agencies eliminate 50 percent of their internal
management regulations and controls by 1996. The President signed the Executive Order
immediately following release of the National Performance Review which described and
detailed the immense time and resources consumed by an over-abundance of internal
controls.

In October 1993, the Office of Management and Budget (OMB) issued instructions to all
executive departments for implementing the Executive Order. The OMB instruction stated
that "the goal of this reduction effort is to weed out needless internal regulations so that:
(1) the outcomes to be achieved in a regulation are clearly articulated; (2) responsibilities
for decision making and action are clearly assigned; and (3) oversight can shift from
process to outcome." The OMB encouraged agencies to re-examine internal business
practices and how these practices can be re-engineered to accomplish necessary reductions.

In response to the Executive Order and OMB instructions, Department of Health and
Human Services (HHS) Secretary Donna Shalala instructed her Continuous Improvement
Program (CIP) Steering Committee to oversee the reduction of internal regulations and
controls within the Department. The CIP’s Advisory Group on Organization and
Management Structure and Processes established a work group to focus on internal
controls. The CIP work group requested the Office of Inspector General’s
(OIG) assistance in identifying duplicative or unnecessary controls and requirements.

Defining Internal Regulations and Controls

The Executive Order defines internal management regulation as an agency directive or
regulation that pertains to its organization, management, or personnel matters. The OMB
clarified this definition by stating that, for the purposes of the reduction effort, an internal
control is defined as:

       ...any agency directive, regardless of what you call it, that prescribes agency
       policies or procedures--including internal agency acquisition regulations and
       grant management requirements--that pertain to an agency’s internal
       organization, management, or personnel.




                                                1

The OMB stated that certain regulatory provisions should not be included in this reduction
effort. Excluded are provisions that (1) are non-discretionary (i.e. those required by
statute, court order, Executive Order, or other external agency directive), (2) promote
public information access, and (3) are determined to be necessary for the delivery of
"essential services."

The CIP clarified the definition of internal controls for purposes of HHS’ reduction effort
as:

       ...any imposition by an organizational unit upon another of a requirement for
       approval of decisions or activities, guidance or procedures on how to
       accomplish an assignment or mission, or reporting of information...internal
       controls include any such imposition, regardless of the origin of the
       requirement.

For purposes of this study, the term internal controls includes all of the elements in both
the Executive Order and CIP definitions. For clarity and brevity, we have consolidated
these definitions into the following three primary categories:

       approvals: layers of review and approvals;

       procedures: written manuals and guidance as well as unwritten controls such as
       policies and instructions that have become standard; and

       reports: written or automated reports describing grantee or staff performance,
       requirements to use specific reporting systems, and paperwork requirements.

Status of Current Reduction Efforts

Since release of the National Performance Review in September 1993, the CIP’s
Organization and Management Work Group has been focusing its attention on reducing
internal controls. Its efforts have targeted (1) refining the task and developing a strategy to
achieve the 50 percent control reduction target, (2) issuing guidance to CIP committees and
HHS agencies, and (3) conducting analysis and review.

Agencies within HHS are at various stages in their internal controls reduction efforts. The
CIP requests that agencies provide them with quarterly reports on the status of their efforts.

This is one in a series of reports prepared by the OIG on the subject of reducing internal
controls. It describes the methodology that we used to identify unnecessary internal
controls and the general results of our inspection. In subsequent reports, we will describe
in more detail the controls that staff identified. We conducted this inspection in
accordance with the Quality Standards for Inspections issued by the President’s Council
on Integrity and Efficiency.




                                              2

                          METHODOLOGY


OVERVIEW

The prototype methodology we developed uses focus groups and interviews with field-level
staff to identify internal controls that they believe are burdensome or unnecessary. We
devised this approach after reviewing HHS agencies’ internal controls reduction efforts
which are focused on headquarters-initiated policies, instructions, and requirements.

To test our methodology, we conducted interviews--either individually, in small groups, or
in focus groups--with 154 staff working for Public Health Service (PHS) agencies in
California. We selected PHS for the case study because of its diversity and complexity.
The sample included the PHS regional office in San Francisco, the Food and Drug
Administration (FDA) regional office in San Francisco, the FDA district office in Alameda,
the FDA resident post in San Jose, and the Indian Health Service (IHS) Area Office in
Sacramento. We also interviewed some staff from the IHS district office in Sacramento.

       Number of Staff Participating in Focus Groups and Interviews, by Office

                                                                      Number of
                        Number of      Number of      Number of       staff not in      Total Staff
                          Focus          Group         Individual    sample who        Interviewed
        Agency
                          Group         Interview       Interview       provided      (and % of all
                        Participants   Participants   Participants    information     agency staff)
                                                                     (sent letters)

 PHS Regional Office                                                                   42 out of 64
                            10             22             10               0
 San Francisco                                                                           (65.6%)

 FDA Regional Office                                                                   16 out of 18
                             9              3              4               0
 San Francisco                                                                           (88.9%)

 FDA District Office                                                                  44 out of 130
                            29              7              8               0
 Alameda                                                                                 (33.8%)

 FDA Resident Post                                                                     8 out of 10
                             6              0              2               0
 San Jose                                                                                (80.0%)

 IHS Area Office
                                                                                       44 out of 81
 Sacramento (includes       23             14              5               2
                                                                                         (54.3%)
 district staff)

                                                                                      154 out of 303
       TOTAL                77             46             29               2
                                                                                         (50.8%)




                                                 3

FOCUS GROUP METHODOLOGY

We interviewed half of our sample (77 out of 154) in a total of 15 focus groups. The
primary benefit of using focus groups was the quality of information that was generated by
free-flowing discussion among staff who perform similar functions. Focus group literature
suggests that participants often feel more secure in the focus group setting. Because
participants are not required to respond, their statements may be more spontaneous and
meaningful. Using focus groups also saves time in identifying unnecessary internal
controls. During an hour and a half session, we could collect information from four to
eight individuals.

Developing the focus group clusters

We collaborated with each PHS agency to develop the focus group clusters. The focus
group literature recommends that groups should be comprised of 4 to 12 people. We
decided to limit our focus groups to no more than eight people to ensure that everybody
could participate fully.

To form the focus groups, we collected staff rosters from each agency. We clustered staff
based on three separate criteria:

       staff who perform similar duties within the same division or branch (e.g. FDA
       district office microbiologists who all work in the Laboratory Branch);

       staff who perform similar duties but work in different divisions or branches (e.g.
       PHS regional office administrative staff who work in different divisions and
       branches); and

       staff who did not perform similar duties but worked in the same division or branch
       (e.g. professionals of various disciplines working in IHS’ Office of Health
       Programs).

If the total staff in a cluster numbered more than eight--the maximum desired focus group
size--we selected a random sample to form the focus group. When we were not able to
develop a cluster of at least four staff, we arranged a small group (two or three people)
interview rather than a focus group. We conducted small group interviews slightly
differently than focus groups. See page 7 for a more detailed explanation.

We made ourselves available to staff who were not selected to participate. After we
selected the participants, we sent letters describing the study to all staff, including those
who were not selected due to the random sampling. Appendix A is a copy of the letter
that we sent. The letters offered everyone the opportunity to call or send electronic mail to
us describing unnecessary internal controls. We also offered to meet privately if they
wished. We received phone calls from two staff members who asked questions about the
study. They did not provide information about unnecessary internal controls.



                                             4

Scheduling the focus groups

We compared the effectiveness of two methods of scheduling the focus groups. For the

PHS regional office, we contacted staff directly to inform them of the scheduled date and

time. For IHS and FDA, our liaisons within these offices informed staff of the schedule.

Both methods were successful, although each had benefits and drawbacks.


The primary benefit of contacting staff directly is that everyone clearly understood that an

outside, impartial group was addressing the issue of internal controls. This can yield

beneficial results during interviews because participants may believe there is a greater

opportunity for change. We were concerned that staff would not contribute as freely if

they believed local agency management was spearheading the effort. The drawback,

however, was that staff were not acquainted with us and were hesitant to commit time to

meeting with us, although their supervisors were aware we would be contacting them. As

a result, scheduling the PHS focus groups was time-consuming, and some participants did

not come to their assigned sessions. The staff that attended, however, provided useful

information on burdensome and unnecessary internal controls.


Using our agency liaisons to schedule the focus groups was successful but required

additional efforts to inform staff that this was an independent assessment of internal

controls rather than a PHS effort. Staff informed us they were skeptical that

PHS would take action on the issues they identified. Although we were concerned that

staff scheduled by PHS would be more hesitant to participate and contribute, we found that

these staff were more likely to attend than staff we scheduled and they identified numerous

controls they believed were unduly burdensome or unnecessary.


Preparing to conduct the focus groups

Prior to conducting the focus groups, we reviewed literature describing successful focus
group practices. The literature suggested that the moderator use a standardized "question
route." A question route basically is a combination between a script and a discussion
guide. Our question route included the text of our introduction and questions and guided
the moderator through each step of the focus group process. It also listed the approximate
amount of time we allotted for each phase of the focus group in order to finish in
approximately 90 minutes. Appendix B is the question route we used.

The literature stated that we should use unbiased, open-ended questions and probes to
evoke discussion from all participants. The literature also helped us develop the checklists
we used to procure appropriate supplies and prepare the meeting rooms. See appendix C
for the checklist we used and appendix D for tips on conducting focus groups.

Conducting the focus groups

Each focus group session consisted of four phases: introduction, brainstorming, ranking
items identified during the brainstorming, and detailed discussion of the top-ranking items.
In practice, the focus groups varied in length from 80 to 120 minutes.


                                              5
Two OIG staff administered each session; one moderated while the other assisted. The
moderator was responsible for leading the discussion, ensuring participants did not stray
from the topic, and pacing the focus group so it did not exceed the time limit. The
moderator also was responsible for assuring that certain participants did not dominate the
conversation and that shy or quiet participants were included in the discussion. The
assistant recorded the brainstorming session on flipcharts, operated the tape recorder, took
notes during the probe session, and observed the participants’ body language and
expressions. In a few focus groups, we used a third OIG staff person to operate the tape
recorder and observe the participants.

Introduction: During the introduction, we briefly described our office, summarized our
purpose, and outlined our goals for the focus group. At the beginning of each focus group
session, we posted the CIP definition of internal controls and discussed each type-­
approvals, guidance, and reports--in detail. We also acknowledged that certain controls
were useful and necessary, but, for the purposes of this study, we wanted participants to
focus on those they believed should be modified or eliminated.

This was a critical time to convince reluctant staff that contributing their ideas was
important. We accomplished this by mentioning that the Office of the Secretary had
requested the study. We acknowledged that we had no authority to make changes
ourselves, but we could make recommendations.

Brainstorming: Referring to the CIP definition, the moderator asked participants to call
out any controls they considered unduly burdensome or unnecessary. We went in order of
the CIP definition--approvals first, followed by guidance and reports--but told staff they
could mention any control as it came to them. The assistant recorded each item on
flipcharts.

We asked participants to abide by certain rules when brainstorming. These included:

       not debating or otherwise discussing other participants’ ideas,

       giving a minimum of explanation so we could get the most out of the time set aside

       for brainstorming, and

       speaking one at a time.


See appendix E for the entire list of brainstorming rules.

We allowed 45 to 60 minutes for the brainstorming. At the conclusion, we allowed time
for participants to ask each other for clarification of individual items and to consolidate
items if they wished to do so.

Ranking: We used a "walk and vote" method to allow participants to rank the internal
controls. We gave each participant five uniquely colored stickers and asked them to place
the stickers on the flipcharts next to the controls they most strongly believed needed to be
modified or eliminated. We told participants they could distribute their votes in any



                                              6

manner they saw fit. They could use all five votes on one control or they could spread
them over several controls.

Assigning each participant a unique color allowed us some flexibility in analyzing the data.
First, we were able to determine how strongly the participants felt about each control by
tabulating the total number of stickers. Second, it enabled us to obtain a simple count of
the number of participants who voted for a specific control by counting the number of
colors for each control. The color-coding system also enabled us to identify instances
where one person felt strongly about a control so we could direct follow-up questions to
that individual.

Detailed Discussion: After participants voted, we discussed in more detail the three items
with the most votes. Specifically, we asked:

       What are the problems with the control?

       What is the reason for the control?

       What should be done with the control?

       Whom should we contact to obtain more information about the reason for the

       control?


Because this was the first opportunity for participants to debate the merits and faults of the
controls, we recorded the discussion using audio tape. We assured participants that they
would not be identified by name when we transcribed the tapes.

INDIVIDUAL AND SMALL GROUP INTERVIEWS

When appropriate, we interviewed staff in individual or small group (two or three people)
settings. We deemed these settings appropriate when staff held unique positions in an
office or when the number of staff performing similar duties was not enough to hold a
focus group. Some examples of staff who were interviewed in these settings include most
managers, administrative officers, and special consultants. We interviewed 75 staff in
48 separate sessions.

We conducted the interviews almost the same as the focus groups. We used the same
questions and probes for the detailed discussion, but we did not use the walk and vote
method for ranking. To assure consistency with the focus groups and to limit our
discussion to the most significant controls, ranking was based upon the number of
participants in the interview:

 When there was/were
                        we asked them to...
     participant(s),

           1            "Rank the three controls that you believe most strongly should be changed"

           2            "Each rank two controls that you believe most strongly should be changed"

           3            "Each pick one control that you believe most strongly should be changed"



                                                 7

                                  FINDINGS


The findings below are based on the opinions of the 154 field staff whom we interviewed.
We did not attempt to confirm or verify these opinions.

STAFF IDENTIFIED 260 INTERNAL CONTROLS THAT THEY BELIEVE ARE
UNDULY BURDENSOME OR UNNECESSARY

The controls staff identified generally fall into the three CIP-defined categories: approvals,

procedures, and reports. Approximately 56 percent of controls pertain to approvals and the

need for delegations of authority, 11 percent to procedures, and

33 percent to reporting requirements.


Staff cited several reasons why they believe so many unnecessary internal controls exist.

Although staff believe that certain controls are necessary and help ensure consistency

nationally, they also believe that agencies are too quick to impose specific controls rather

than broader, flexible guidelines. At times, agencies impose--or watchdog agencies

recommend--broad or agency-wide controls in response to a single occurrence or unusual

situation. In addition, managers at different levels (in both the field and headquarters)

sometimes impose controls on the same administrative or regulatory area. Finally, some

staff noted that their agencies had never conducted a systematic review of internal controls.

As a result, agencies rarely eliminated internal controls, even if they were outdated or no

longer necessary.


MOST UNNECESSARY CONTROLS PERTAIN TO APPROVALS AND THE NEED
FOR DELEGATIONS OF AUTHORITY

Approximately 56 percent of the 260 controls that staff believe are unduly burdensome or
unnecessary fall into the category of approvals. Staff contend that many unnecessary
levels of review and approval exist in their offices, headquarters, and other agencies. Staff
identified numerous operational controls imposed by headquarters and their own field
offices. In addition, they cited unnecessary administrative controls in such areas as
procurement (including those imposed by the General Services Administration), budget and
finance, travel, personnel, performance evaluation, timekeeping and payroll, and training.

Staff mentioned the negative impact of operational controls imposed by headquarters in
three-quarters of all focus group and interview sessions

Staff mentioned more than 35 controls imposed by headquarters agencies that hamper their
ability to do their jobs efficiently and provide quality customer service. These pertain to
the agency’s legal, professional, regulatory, oversight, contracting, and grant activities.
Some examples include multiple levels of review at FDA headquarters prior to taking
simple regulatory actions, PHS central office policy and controls on using consultants for
site visits, and IHS headquarters’ role in monitoring self-governance.



                                              8

In general, staff do not believe the numerous layers of review and approval at the
headquarters level are necessary. While staff understand that the role of headquarters is to
ensure consistency throughout the country, they described the negative effects of these
controls:

       Delays in decision-making caused by multiple headquarters-level reviews may
       seriously impact field staff’s ability to meet the agency’s mission. Lengthy
       headquarters delays sometimes result in field staff having to redo work.

       Field staff at times do not believe that headquarters staff know all of the facts when
       making decisions and therefore do not make the best possible decisions.

       Some headquarters agencies always approve local recommendations and decisions
       and therefore do not appear to serve a useful purpose in decision-making.

       Although one rationale for centralized authority is to ensure that favoritism is
       eliminated, staff claim that the agency’s customers simply bypass the local office
       and appeal directly to headquarters. Staff believe that the favoritism that was
       eliminated at the local level is now occurring at the headquarters level.

       In general, lack of authority has negatively impacted morale and employee
       empowerment.

Staff identified more than 20 burdensome operational controls that have been imposed
by regional, district, or other field office management

Staff described office processes that involve many layers of review and approval similar to
those they described in headquarters offices. In other cases, staff simply do not understand
why certain top managers (e.g. the IHS area office director or the FDA district director)
are required to sign leave slips or sign off as the property manager on small purchases.

Controls on procurement and those imposed by the General Services Administration
(GSA) impact staff’s ability to do their jobs

Staff from all agencies identified more than 15 controls regarding procurement and GSA.
These controls frequently result in staff not having access to appropriate resources in a
timely manner.

Staff described an overabundance of local and national controls on procurement. The
controls on procuring copiers, computer hardware and software, supplies, copying
services, conference facilities, telephone services, repairs, and small purchases in general
take time away from staff’s normal duties and impact their ability to do their jobs. For
the most part, the processes that staff mentioned as burdensome include (1) the multiple
approval levels--especially at the local level--even for small purchases, (2) the requirement
that staff obtain three bids for goods and services, (3) the paperwork required simply to



                                              9

request a procurement, and (4) the general inability to obtain needed equipment, supplies,
and services in a timely manner.

Staff from all agencies were particularly critical of GSA’s procurement and building
management controls. They reported that GSA’s involvement has resulted in massive
delays in relocating offices, delays in procuring what turned out to be a faulty telephone
system, inability to obtain emergency building management services, and unnecessary
paperwork.

Budget and finance controls are particularly burdensome to mid- and upper-level field
managers

Staff from all agencies described unnecessary budget and finance controls at the local and
headquarters levels. The major issue is the lack of authority that local mid-level managers
have to manage their own budgets. While they are required to submit budgets to manage
their offices, they are still required to obtain approval for every expenditure. According to
these mid-level managers, local or headquarters management frequently reduce their
budgets without consulting or notifying them. Other budget and finance issues include
requirements that (1) staff keep budget commitment registers that are not reconciled with
agency budget data, (2) agencies use budget software that staff believe is outdated and
inadequate, and (3) funds must be recertified by a second staff member for availability in
the fourth quarter of the fiscal year.

Agencies require too many approvals for staff to travel on official business and receive
travel reimbursement in a timely manner

Staff provided a list of more than a dozen burdensome internal controls regarding travel.
Of the 260 unduly burdensome or unnecessary controls identified, the number of review
and approval layers for travel orders was mentioned more frequently than any other single
control, even though many field staff do not travel for their jobs. Staff described similar
problems with the travel reimbursement process, where delays due to multiple approval
levels have resulted in instances where staff’s credit cards have been cancelled due to non-
payment. Other burdensome controls include those limiting staff’s ability to obtain blanket
travel orders, the number and level of approvals for registration fees and travel to non-
agency meetings, and local requirements that staff submit and get approval for a monthly
travel plan, even though each trip must be individually approved.

Staff provided approximately 30 examples of unnecessary controls in the area of
personnel, performance evaluation, timekeeping, and payroll

Staff from all agencies identified approximately one dozen unnecessary or burdensome
personnel-related controls imposed by their agencies and the Office of Personnel
Management (OPM). In the area of personnel policy, the issues raised most often were the
cumbersome processes to hire and fire, the time required to obtain a new position
description due to the multiple layers of review within the agency and OPM, and the



                                             10

general inconsistency between controls pertaining to PHS commissioned officers and those
affecting civil service employees.

Discussions about controls on performance evaluation evoked strong sentiment from staff.
When asked to vote for the controls they believed most strongly needed to be addressed,
more staff voted for controls regarding the civil service Employee Performance
Management System (EPMS) than for any other control. Many staff and managers
disagree with the requirement that they must adhere to the strict criteria and format of the
EPMS. Some staff believe, in addition, that headquarters control over bonuses and awards
severely hampers employee morale.

In the areas of timekeeping and payroll, staff noted several areas where delegations of
authority and more freedom to design a flexible system would save time and resources.
These areas include the requirement that they use time cards, the process for approving
leave, and the controls limiting the field office’s ability to implement alternative work
schedules.

Certain internal controls limit staff’s input on and access to training

Staff identified a few controls that they believe hamper their ability to obtain appropriate
training and career development resources. Staff do not understand why so many
approvals are necessary on the SF-350 training form, including training officers in
headquarters who do not know their training needs. Some staff also believe that the
controls in place limit their ability to identify their own training needs and obtain the
appropriate training.

TO A LIMITED EXTENT, STAFF IDENTIFIED BOTH WRITTEN AND
UNWRITTEN PROCEDURES THAT SHOULD BE MODIFIED OR ELIMINATED

Staff identified almost 30 procedures that should be eliminated or modified. In some
cases, staff referred to written manuals, guidance, and procedures. In other cases, they
described burdensome and inefficient processes for completing tasks that have never been
formalized (e.g., written into a manual or memo), but have become required operational
standards.

Staff stated that certain written procedures:

       contain too much extraneous information,

       are outdated or too difficult to update continually, and/or

       conflict with other procedures.


In other cases, staff believe that procedures were written or implemented by people who
didn’t have recent field experience and therefore didn’t understand how guidance should
have been developed. As a result, certain procedures--such as FDA’s processes for sample
disposition, analytical worksheets, and check analysis for imports--have become
unnecessarily burdensome and time-consuming.


                                                11
STAFF BELIEVE THAT MANY REPORTS AND PAPERWORK COULD BE
ELIMINATED OR OTHERWISE STREAMLINED

Staff identified approximately 85 burdensome or otherwise problematic reports and systems
for reporting data as well as paperwork that they believe are unnecessary and could be
eliminated. Duplication was a major theme that emerged from the focus groups. Staff
painted a picture of uncoordinated reporting systems that take their time away from the
more important tasks of administering public health programs.

Although not specifically an internal control, staff overwhelmingly believe that special
report requests from headquarters need to be reduced. The requests require that staff stop
their normal tasks in order to prepare data that is often already available through other
sources. Staff do not understand the purpose of the reports and seldom receive feedback
on the results of their efforts.

Completing burdensome or unnecessary reports takes time away from more critical
duties

Data reports

Staff identified 50 data reports that should be eliminated or changed. These reports
include information on staff and/or agency finances, travel, staffing, inventory, training,
and conferences. They also include data reported to headquarters on the performance of
the agencies’ customers, such as grantees, contractors, firms regulated by FDA, and health
care providers funded by PHS.

Staff believe that many of these reports are no longer necessary. In some cases, automated
systems have replaced manual systems, but headquarters still requires paper reports. In
other cases, regulations or requirements changed, but nobody informed field offices that
reports were no longer required.

At times, the rigid, required format of reports wastes time and effort. For instance,
although staff routinely complete reports after conducting field visits, they cited instances
where they should be allowed to substitute abbreviated reports for full reports. An
example is FDA inspection reports where investigators find no violations. Investigators
stated that they are required to complete the full establishment inspection report, even
though they must write "no action indicated" throughout the entire report.

Employee activity reports

Staff described the burden of completing reports that summarize their activities to
supervisors or headquarters. Staff from all agencies believe that monthly, weekly, and
even daily reports hurt morale because their existence implies that management does not
trust them. In general, both staff and their first-line supervisors believe that the
supervisors should monitor staff by being involved in their activities and talking with them
rather than by mandating reports.


                                              12
Some systems that were designed to ease reporting have become more burdensome than
helpful

Although staff acknowledged that automation has improved their work lives, they are
somewhat dissatisfied with the requirements to use specific systems. During the focus
groups and interviews, they described systems that are cumbersome or flawed or require
too much information. In other cases, staff contended that commercial software would
meet their needs much better than the proprietary software that headquarters requires them
to use. Examples of reporting systems that staff believe need to be changed are budget
tracking, timekeeping, and employee activity tracking systems.

Headquarters and local management have limited staff’s access to certain systems, such as
PHS’ BHCDAnet and FDA’s central file number assignment system. These controls cause
delays in completing assignments because staff have to ask authorizing officials to provide
information from these systems.

Staff suggest that basic paperwork exercises be reevaluated

Staff questioned the most basic of paperwork requirements: differently colored file copies,
sending hard copies after transmitting copies via electronic mail or fax, and requiring hard
copies of reports that are available on automated systems. Staff also mentioned instances
where paperwork could be reduced if materials were distributed on-line or only to staff
who need and use them.

APPROXIMATELY 96 PERCENT OF PARTICIPANTS BELIEVE THAT FOCUS
GROUPS ARE USEFUL FOR IDENTIFYING UNNECESSARY INTERNAL
CONTROLS

In order to assess the focus group process, we asked participants to complete an evaluation
form at the end of each focus group. Specifically, we asked their opinions about (1) how
effective the focus group method was for identifying problematic internal controls, (2)
whether the focus group concentrated on the most appropriate issue areas, and (3) how the
process could be improved.

Participants strongly believe that the focus group process yields high quality information
about unnecessary internal controls. Almost all--96 percent--of the participants believe that
focus groups are an effective method for identifying problematic internal controls.
Approximately one-third of these participants believe that it is very effective. In addition,
94 percent of participants believe that the focus group discussion, which was based on the
CIP definition of internal controls, concentrated on the most appropriate issue areas.

A few participants suggested changes that they believe would improve the process.
Although we sent letters specifically describing the discussion areas to all participants prior
to each focus group, several stated that they would have been better prepared if they had
received more information and examples of internal controls before the session. Other
participants believe that 90 minutes is not long enough for the focus group.


                                              13
                            CONCLUSIONS


FOCUS GROUPS ARE AN EFFECTIVE MEANS OF IDENTIFYING INTERNAL
CONTROLS THAT MAY BE UNDULY BURDENSOME OR UNNECESSARY;
HOWEVER, THE NEXT STEP IS TO FOLLOW UP TO IDENTIFY THE REASON
FOR EACH CONTROL BEFORE MODIFYING OR ELIMINATING IT

The focus group method provides an effective forum for initial identification and
discussion of problematic internal controls. It allows internal control reviewers to identify
the controls that cause the most problems for staff--those that most negatively affect their
morale and their ability to do their jobs. It also allows reviewers to identify controls that
might not have been identified using a "top-down" approach. Finally, it helps clarify why
staff are concerned about specific controls.

Once the controls are identified, the next step is to determine the reason for each control,
take action, and provide feedback to staff. The focus groups provide a starting point for
analysis. Obtaining the perspectives of the people who developed, imposed, and oversee
each control is important in determining if a control should be retained, modified or
eliminated.

AGENCIES’ EFFORTS TO REDUCE INTERNAL CONTROLS ARE
INCOMPLETE WITHOUT FIELD STAFF INPUT

Field staff identified controls that headquarters reduction efforts would probably not
identify because many of them are operational and do not appear in written procedures.
More than half of the controls staff identified involve layers of approval that are unique to
a particular agency and, sometimes, to a particular field office. Field staff can contribute
useful information about revising controls that affect them. In addition, the actual process
of surveying staff can have a positive effect on employee empowerment and morale.

ONGOING EFFORTS TO REDUCE INTERNAL CONTROLS ARE NECESSARY
TO PREVENT THEIR PROLIFERATION

The large number of unnecessary internal controls identified by staff is partially related to
the lack of a continuous effort to weed out and eliminate them. At the same time,
managers and agency watchdogs such as the General Accounting Office and the Office of
Inspector General’s Office of Audit Services frequently identify vulnerabilities and the
need for more internal controls based on reviews of agency programs. An on-going
internal controls review effort will be necessary to avert another build-up of unnecessary
controls after agencies meet the President’s 50 percent reduction requirement.

NEXT PHASES OF THE INSPECTION

This report will be followed by two additional inspection phases, each resulting in a
separate report. First, we will provide PHS with a list of every internal control identified


                                              14
by staff as unduly burdensome or unnecessary. At the same time, we will develop a
methodology to analyze the controls identified by staff and test this methodology using a
sample of controls we select in association with PHS and the Office of the Secretary. This
methodology should help agencies determine the reason for each control and enable them
to decide whether the control should be retained, modified, or eliminated.




                                            15

� � � � � � � � �� �   

�������������������





        A - 1

A - 2

   � � � � � � � � �� �   

��������������������������    





           B - 1

B - 2

B - 3

B - 4

B - 5

B - 6

� � � � � � � � �� �


���������������������  





        C - 1

C - 2

� � � � � � � � �� �   


��������������������   

� � � � � � � � �� �   


�������������������    

